OIG Investigative Reports, Tampa, FL., April 26 31, 2012 - Two Pinellas County Residents Indicted for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Two Pinellas County Residents Indicted for Student Loan Fraud
FOR IMMEDIATE RELEASE
April 30, 2012
Tampa, FL - United States Attorney Robert E. O'Neill announces the unsealing of an indictment charging James Isaac Boyd (40, St. Petersburg) and Shaneva Boyd (30, Clearwater) with conspiracy to defraud the United States Department of Education through a student loan fraud scheme, as well as separate charges of mail fraud and student loan fraud. James Issac Boyd was also charged with aggravated identity theft. If convicted, each faces a maximum penalty of 20 years in prison for the mail fraud charge and 5 years imprisonment, respectively, for the conspiracy and student loan fraud charges. James Isaac Boyd also faces a mandatory minimum penalty of 2 years imprisonment for aggravated identity theft.
According to the indictment, between August 2005 and September 2007, James Isaac Boyd and Shaneva Boyd formed a Florida corporation named "Graduate Assistance and Consolidations," located in St. Petersburg Florida, to carry out a student loan fraud scheme. Through this company, the Boyds recruited individuals who could not otherwise qualify for federal student aid, and used the personal identifying information of those individuals to submit fraudulent student enrollment forms and federal student financial aid packages to local colleges. The financial aid checks from these schools were often mailed directly to the Boyd's company address and deposited into a bank account which they controlled.
An indictment is merely a formal charge that a defendant has committed a violation of the federal criminal laws, and every defendant is presumed innocent unless, and until, proven guilty.
This case was investigated by United States Department of Education, Office of Inspector General. It will be prosecuted by Assistant United States Attorney Cherie L. Krigsman.
Top
Printable view
Last Modified: 05/03/2012
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov